TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2008 Statutory Audit of
                       Compliance With Legal Guidelines
                      Restricting the Use of Records of Tax
                               Enforcement Results



                                           April 17, 2008

                              Reference Number: 2008-40-108




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                April 17, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Fiscal Year 2008 Statutory Audit of Compliance
                              With Legal Guidelines Restricting the Use of Records of Tax
                              Enforcement Results (Audit # 200840001)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with established procedures to implement the legal guidelines set forth in IRS
 Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1 The Treasury Inspector General
 for Tax Administration is required under Internal Revenue Code Section 7803(d)(1) (2000) to
 annually evaluate the IRS’ compliance with the provisions of RRA 98 Section 1204.

 Impact on the Taxpayer
 The RRA 98 requires the IRS to ensure that managers do not evaluate enforcement employees2
 using any record of tax enforcement results (ROTER) or base employee successes on meeting
 arbitrary production goals and quotas. In the sample we reviewed, we did identify a few
 instances in which employee evaluations contained ROTERs. However, based on the overall
 results of our sample, we believe that the IRS’ efforts to enforce the employee evaluation
 requirements under Section 1204 are generally effective and are helping to protect the rights of
 taxpayers.




 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
 judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
 who provides direction/guidance for Section 1204 program activities.
                          Fiscal Year 2008 Statutory Audit of Compliance With
                         Legal Guidelines Restricting the Use of Records of Tax
                                          Enforcement Results



Synopsis
RRA 98 Section 1204(a) prohibits the IRS from using any ROTER to evaluate employees or to
impose or suggest production quotas or goals. Section 1204(b) requires employees to be
evaluated using the fair and equitable treatment of taxpayers as a performance standard.
Section 1204(c) requires each appropriate supervisor to certify quarterly whether tax
enforcement results were used in a prohibited manner.
To evaluate compliance with RRA 98 Section 1204, we selected a judgmental sample of 10 cities
in which all functions subject to Section 1204 were located. We selected 1 first-line manager
from each function3 and 3 employees for each of these managers (if available) for a total of
68 managers and 202 employees.4 In addition, we selected 15 second-, third-, and upper-level
managers (including executives) having supervisory
responsibilities over the first-line managers selected for    Full compliance with RRA 98
review. We evaluated Fiscal Year 2007 performance            Section 1204 was not achieved
evaluation documents (including midyear and annual              during Fiscal Year 2007.
performance reviews and award documentation) for each
selected employee to determine whether ROTERs were
used when evaluating the employees’ performance.
We identified potential violations of RRA 98 Section 1204(a) in 7 (1 percent) of the
660 performance evaluation documents reviewed. In addition, four managers did not document
that they had evaluated employees on the retention standard that requires the fair and equitable
treatment of taxpayers, and 29 (45 percent) of the 65 employees and managers we asked did not
understand the intent of the retention standard. Further, five managers of employees could not
substantiate compliance with IRS procedures by providing evidence that they had completed the
requested RRA 98 Section 1204 Manager’s Self-Certification Forms.

Recommendation
The Deputy Commissioner for Operations Support should work with the National Treasury
Employees Union and the IRS business units and functions to 1) revise Block 9 of the
Bargaining Unit Performance Appraisal and Recognition Election (Form 6850-BU) and the
Non-Bargaining Unit Performance Appraisal (Form 6850-NBU) to label the retention standard
as the “Fair and Equitable Treatment Standard” and 2) define the standard in the instructions
attached to the Forms.



3
  After obtaining the Fiscal Year 2007 data, we determined that two sites did not have a manager in one of the seven
business units. Therefore, no managers or employees were selected for those business units.
4
  These were employees in jobs for which RRA 98 Section 1204 would be applicable.
                                                                                                                   2
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                      Enforcement Results



Response
IRS management agreed with our recommendation. The Human Capital Officer will work with
the National Treasury Employees Union to revise Block 9 of Forms 6850-BU and 6850-NBU to
label the retention standard as the “Fair and Equitable Treatment Standard” and to define the
standard Section 1204(b) in the instructions attached to each of the Forms. Management’s
complete response to the draft report is included as Appendix V.

Office of Audit Comment
IRS management disagreed that the ROTERs we identified in employee self-assessments
violate RRA 98 Section 1204(a). However, our position in this and the prior audits is that
self-assessments containing ROTERs do violate RRA 98 Section 1204(a). Self-assessments are
a fundamental part of the evaluation process for managers and executives, who complete
self-assessments and provide them to their managers for consideration when preparing their
annual appraisals. In our experience, the self-assessments are usually associated with the annual
appraisals. Quite often, self-assessments are attached to and, in effect, become part of the annual
appraisals.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  3
                              Fiscal Year 2008 Statutory Audit of Compliance With
                             Legal Guidelines Restricting the Use of Records of Tax
                                              Enforcement Results




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Is Not in Full Compliance With
          the Use of Records of Tax Enforcement Results Procedures .......................Page 4
               Recommendation 1:................................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Prior Audit Reports ..............................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
          Fiscal Year 2008 Statutory Audit of Compliance With
         Legal Guidelines Restricting the Use of Records of Tax
                          Enforcement Results




                    Abbreviations

IRS           Internal Revenue Service
ROTER         Record of Tax Enforcement Results
RRA 98        Restructuring and Reform Act of 1998
TIGTA         Treasury Inspector General for Tax Administration
                         Fiscal Year 2008 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                         Enforcement Results




                                           Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law.1 RRA 98 Section 1204 restricts the use of enforcement
statistics. Specifically, RRA 98 Section 1204(a) prohibits the IRS from using any record of tax
enforcement results (ROTER) to evaluate employees or to impose or suggest production quotas
or goals.
The IRS defines ROTERs as data, statistics, compilations of information, or other numerical or
quantitative recording of the tax enforcement results reached
in one or more cases. A ROTER does not include                     RRA 98 Section 1204
evaluating an individual case to determine if an employee       prohibits the IRS from using
exercised appropriate judgment in pursuing enforcement of       ROTERs or production goals
the tax laws. Examples of ROTERs include the amount of             or quotas to evaluate
dollars collected or assessed, the number of fraud referrals            employees.
made, and the number of seizures conducted.
RRA 98 Section 1204(b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. The IRS refers to this standard as the
retention standard. It requires employees to administer the tax laws fairly and equitably; protect
all taxpayers’ rights; and treat each taxpayer ethically with honesty, integrity, and respect. This
provision of the law was enacted to provide assurance that employee performance is focused on
providing quality service to taxpayers instead of achieving enforcement results.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a self-certification
quarterly. In the self-certification, the appropriate supervisor attests to whether ROTERs or
production quotas or goals were used in a prohibited manner. The IRS defines an appropriate
supervisor as the highest ranking executive in a distinct organizational unit who supervises
directly or indirectly one or more Section 1204 enforcement employees.2 IRS procedures require
each level of management–beginning with first-line managers of Section 1204(a) employees–to
self-certify that they have not used ROTERs in a manner prohibited by RRA 98 Section 1204(a).
The appropriate supervisor is then to prepare a consolidated office certification covering the
entire organizational unit.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
who provides direction/guidance for Section 1204 program activities.
                                                                                                        Page 1
                                  Fiscal Year 2008 Statutory Audit of Compliance With
                                 Legal Guidelines Restricting the Use of Records of Tax
                                                  Enforcement Results



The IRS business units and functions, including the Office of the Chief, Appeals; the Office of
the Chief, Criminal Investigation Division; the Large and Mid-size Business Division; the Small
Business/Self-Employed Division; the Office of the National Taxpayer Advocate; the Tax
Exempt and Government Entities Division; and the Wage and Investment Division, are
responsible for Section 1204 program implementation within their respective areas.
Section 1204 Program Managers and Section 1204 Coordinators in each division and function
are available to provide guidance to managers regarding Section 1204 issues, including the
certification process.
Figure 1 depicts the ratio of Section 1204 and Non-Section 1204 managers in the subject
business units as of June 30, 2007. The Section 1204 managers either supervised a Section 1204
employee or provided guidance or direction for Section 1204 activities.
  Figure 1: Number of Section 1204 and Non-Section 1204 First-Line Managers
                    by Business Unit (as of June 30, 2007)
           2500
                                                                                      2,268


                                                                                                                      1,977
           2000




           1500
   Number of
   First- Line
   Managers

           1000
                                                                                                              833
                                                                  649
                                             528
             500
                                                                                                 231                               196                  225
                        137
                                    48                   15                   47                                                               7                    11
                    0                                                                                                                                   Tax Exempt and
                                           Criminal Investigation Large and Mid-Sized Small Business/Self-       Wage and          National Taxpayer
                        Appeals Function                                                                                                               Government Entities
                                                  Division         Business Division   Employed Division     Investment Division       Advocate
                                                                                                                                                            Division
     Section 1204             137                  528                  649                  2,268                  833                  196                  225
     Non-Section 1204         48                   15                    47                   231                  1,977                   7                   11

Source: IRS Section 1204 Program Managers, June 30, 2007.

Internal Revenue Code Section 7803(d)(1) (2000) requires the Treasury Inspector General for
Tax Administration (TIGTA) to determine annually whether the IRS is in compliance with

                                                                                                                                                                Page 2
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                      Enforcement Results



restrictions on the use of enforcement statistics under RRA 98 Section 1204. We have
previously performed nine annual reviews to meet this requirement. The audit reports are listed
in Appendix IV.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief Financial Officer; the Office of the Chief, Appeals; the Office of the Chief, Criminal
Investigation Division; the Large and Mid-size Business Division; the Small Business/
Self-Employed Division; the Office of the National Taxpayer Advocate; the Tax Exempt and
Government Entities Division; and the Wage and Investment Division during the period
August 2007 through January 2008. Onsite reviews were performed at the IRS field offices in
Boston, Massachusetts; Detroit, Michigan; Greensboro, North Carolina; Los Angeles, California;
New Orleans, Louisiana; Philadelphia, Pennsylvania; Pittsburgh, Pennsylvania;
Plantation, Florida; Sacramento, California; and Washington, D.C. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                          Fiscal Year 2008 Statutory Audit of Compliance With
                         Legal Guidelines Restricting the Use of Records of Tax
                                          Enforcement Results




                                      Results of Review

The Internal Revenue Service Is Not In Full Compliance With the Use
of Records of Tax Enforcement Results Procedures
The IRS did not achieve full compliance with RRA 98 Section 1204 in Fiscal Year 2007.
    •   Potential ROTER violations of RRA 98 Section 1204 were identified in 7 (1 percent) of
        660 employee or manager performance-related documents reviewed.
    •   Five managers could not provide one of the two Manager’s Quarterly Self-Certifications
        (Form 1204) requested.
    •   Four managers, affecting six employees, did not indicate that employees were evaluated
        on the retention standard, which requires the fair and equitable treatment of taxpayers.
To evaluate the IRS’ compliance with Sections 1204(a) and 1204(b), which prohibit the use of
enforcement statistics to evaluate employee performance and require that employees be
evaluated on the fair and equitable treatment of taxpayers, we selected a judgmental sample of
68 first-line managers and 202 employees in 10 cities.3 We selected sites that had at least one
Section 1204 first-line manager in each of the seven IRS business units and selected one
first-line manager from each of the business units and three employees from each manager.4 We
also reviewed performance documentation for 35 first-line managers and 15 second-, third-, and
upper-level managers and executives. We evaluated 660 Fiscal Year 2007 performance-related
documents, including midyear and annual performance reviews, workload reviews, and award
documentation for each employee, to determine whether ROTERs were used when evaluating
the employees’ performance.

ROTERs were used in a few evaluative documents
Our review of a judgmental sample of 660 performance-related documents for 252 employees
showed 7 instances (1 percent) in which ROTERs were used to evaluate employees. These
ROTERs were found in employee self-assessments and annual and midyear performance
reviews. The managers sampled worked in the Office of the Chief, Appeals; the Office of the
Chief, Criminal Investigation Division; the Large and Mid-size Business Division; the Small



3
 See Appendix I for details of the IRS offices and cities selected for review.
4
 After obtaining the Fiscal Year 2007 data, we determined that two sites did not have a manager in one of the seven
business units. Therefore, no managers or employees were selected for those business units.
                                                                                                           Page 4
                         Fiscal Year 2008 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                         Enforcement Results



Business/Self-Employed Division; the Office of the National Taxpayer Advocate; the Tax
Exempt and Government Entities Division; and the Wage and Investment Division.
We also researched the TIGTA Performance and Results Information System5 for any related
Section 1204 complaints during the period September 1, 2006, through August 31, 2007. There
was only one potential Section 1204 complaint in the Performance and Results Information
System during that 12-month period.
Based on the results of our review, IRS efforts to ensure that managers are not using ROTERs or
production goals or quotas to evaluate employees are generally effective and are helping to
protect the rights of taxpayers. Because the IRS continues to identify and report ROTER
violations through its manager self-certification process, it has developed a mandatory briefing to
be completed by all Section 1204 employees by March 21, 2008.

Most managers maintained copies of completed self-certification forms
Sixty-three (57 + 6, or 93 percent) of 68 first-line managers sampled had complied with the
provisions of RRA 98 Section 1204(c) by completing the required self-certifications on the use
of tax enforcement results.
    •   60 (98 percent) of 61 managers produced copies of their second quarter self-certification
        forms, and 57 (93 percent) of these 61 managers also produced copies of their fourth
        quarter self-certification forms.
    •   7 (100 percent) of 7 managers produced copies of their second quarter self-certification
        forms, and 6 (86 percent) of these 7 managers also produced copies of their third quarter
        self-certification forms.
RRA 98 Section 1204(c) requires appropriate supervisors to certify quarterly in writing to the
IRS Commissioner whether ROTERs and production quotas or goals were used in a prohibited
manner. To do this, managers who evaluate Section 1204 employees are required to certify in
writing that they did not:
    •   Use ROTERs to evaluate employees or to impose or suggest production quotas or goals
        for employees in any performance evaluations, including appraisals, awards, or
        promotion justifications, written or reviewed by the manager.
    •   Verbally communicate to employees that ROTERs affected their evaluations.




5
  The Performance and Results Information System provides the TIGTA the managerial ability to account for and
track all leads developed by the TIGTA, all complaints received from external sources, and all investigations
initiated as a result of internal and external allegations.
                                                                                                        Page 5
                       Fiscal Year 2008 Statutory Audit of Compliance With
                      Legal Guidelines Restricting the Use of Records of Tax
                                       Enforcement Results



   •   Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
       employees or for work unit activities (e.g., through program guidance or business and
       program reviews).
Figure 2 presents an excerpt from Form 1204-M, which is one of the versions of Form 1204.
  Figure 2: Manager’s Quarterly Self-Certification – No Violations (Form 1204-M)




         Source: Manager’s Quarterly Self-Certification – No Violations (Form 1204-M).

Per the Internal Revenue Manual, the business organization and function Section 1204 Program
Managers and their respective Section 1204 Coordinators should monitor the quarterly
certification process throughout their organizations/functions. The Program Managers and
Section 1204 Coordinators are responsible for providing guidance to managers regarding
Section 1204 issues.
Through the quarterly certification process, managers are reminded of their responsibilities under
RRA 98 Section 1204 not to evaluate their employees on the basis of ROTERs or production


                                                                                           Page 6
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                      Enforcement Results



quotas or goals. This helps to ensure that managers are aware of the IRS’ commitment to
administer the tax laws fairly and to protect the rights of taxpayers.
Because the IRS is generally in compliance with the requirements of Section 1204, we are
making no recommendations at this time.

Most managers indicated that employees were rated on the fair and equitable
treatment of taxpayers
Of 118 managers sampled, 114 (97 percent) documented that they had evaluated employees on
the retention standard. However, four managers, affecting six employees, did not indicate on the
evaluation form that the employees were evaluated on the retention standard that requires the fair
and equitable treatment of taxpayers. By law, IRS employees are to be evaluated on the
retention standard.
On June 16, 1999, the IRS established such a standard to ensure that employee performance is
focused on providing quality service to taxpayers instead of on achieving enforcement results.
The standard applies to all executives, managers, and other employees. In most instances,
Block 9 of the Bargaining Unit Performance Appraisal and Recognition Election
(Form 6850-BU) or the Non-Bargaining Unit Performance Appraisal (Form 6850-NBU) was
checked, indicating that the employees were evaluated on this standard.
Managers and employees are confused about the intent of the retention standard
Of the 65 managers and employees who were asked if they understood the retention standard,
29 (45 percent) did not understand the intent of the retention standard. Forms 6850 do not define
the retention standard. The instructions indicate that a narrative is required only if the assigned
rating is “Not Met.” Figure 3 presents an excerpt from the two Forms 6850 pertaining to the
retention standard.
                    Figure 3: Forms 6850 Retention Standard Rating




 Source: Form 6850-BU and Form 6850-NBU.



                                                                                            Page 7
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                      Enforcement Results



Sixteen employees and 13 managers interviewed showed a lack of knowledge of the intent of the
retention standard. Some managers stated that the retention standard was measuring whether the
employee would be retained in his or her job as a result of meeting the critical job elements on
the evaluation form. Other managers could not describe how they evaluate employees in their
unit on this standard. It appears that for some managers the standard on the evaluation form has
become a box that is simply “checked” without any real substance being discussed with the
employee.
The standard is defined in employee performance plans, and the IRS advised us that the retention
standard information is found in many avenues through IRS web sites and on the Critical
Elements and Standards that managers should review annually with employees. However, the
evaluation forms for most employees label the standard simply as the “retention standard,” which
is not defined on the evaluation forms or in the instructions. Some managers and employees
advised us that no recent training on the retention standard has been received and that this
standard is not discussed during meetings or performance evaluation discussions. Clarifying the
standard on the employee evaluation forms would help managers and employees better
understand the intent of the standard and ensure that it is being considered.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should work with
the National Treasury Employees Union and the IRS business units and functions to 1) revise
Block 9 of the Forms 6850 to label the retention standard as the “Fair and Equitable Treatment
Standard” and 2) define the standard in the instructions attached to the Forms.
       Management’s Response: IRS management agreed with this recommendation. The
       Human Capital Officer will work with the National Treasury Employees Union to revise
       Block 9 of Forms 6850-BU and 6850-NBU to label the retention standard as the “Fair
       and Equitable Treatment Standard” and to define the standard Section 1204(b) in the
       instructions attached to each of the Forms.
       Office of Audit Comment: IRS management disagreed that the ROTERs we
       identified in employee self-assessments violate RRA 98 Section 1204(a). However, our
       position in this and the prior audits is that self-assessments containing ROTERs do
       violate RRA 98 Section 1204(a). Self-assessments are a fundamental part of the
       evaluation process for managers and executives, who complete self-assessments and
       provide them to their managers for consideration when preparing their annual appraisals.
       In our experience, the self-assessments are usually associated with the annual appraisals.
       Quite often, self-assessments are attached to and, in effect, become part of the annual
       appraisals.




                                                                                           Page 8
                         Fiscal Year 2008 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                         Enforcement Results



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with established
procedures to implement the legal guidelines set forth in IRS RRA 98 Section 1204.1 To
accomplish this objective, we:
I.      Determined whether a sample of IRS first-line managers complied with the provisions of
        RRA 98 Sections 1204(a) and 1204(b) when evaluating their Section 1204 employees’2
        performance.
        A. Identified the Office of the Chief, Appeals; the Office of the Chief, Criminal
           Investigation Division; the Large and Mid-Size Business Division; the Small
           Business/Self-Employed Division; the Office of the National Taxpayer Advocate; the
           Tax Exempt and Government Entities Division; and the Wage and Investment
           Division office locations in various cities and the number of Section 1204 first-line
           managers located in each business organization by city. We judgmentally selected
           the following 10 cities for this year’s audit: Boston, Massachusetts;
           Detroit, Michigan; Greensboro, North Carolina; Los Angeles, California;
           New Orleans, Louisiana; Philadelphia, Pennsylvania; Pittsburgh, Pennsylvania;
           Plantation, Florida; Sacramento, California; and Washington, D.C. We selected sites
           that had at least 1 Section 1204 first-line manager in each of the 7 IRS business units
           and considered geographic coverage and prior audit coverage when selecting the
           10 audit sites.
        B. Selected a judgmental sample of one first-line manager per business unit and three
           Section 1204 employees for each manager. This provided a total of 68 managers and
           202 employees for review. Because Fiscal Year 2007 data were not yet available, we
           used Fiscal Year 2006 data to select the initial audit sites for the sample. After
           receiving the Fiscal Year 2007 data and selecting the sample of managers, we
           determined that two sites did not have a manager in one of the seven business units.
           No employees were selected for those business units. Also, one of the managers
           selected had only one Section 1204 employee at the site selected. We reviewed
           performance documentation for 35 first-line managers while onsite. We judgmentally


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
who provides direction/guidance for Section 1204 program activities.
                                                                                                        Page 9
                          Fiscal Year 2008 Statutory Audit of Compliance With
                         Legal Guidelines Restricting the Use of Records of Tax
                                          Enforcement Results



             selected those managers based on whether their supervisors were located at the same
             site. In some instances, offsite supervisors were contacted for a copy of the
             documentation. We also reviewed documentation for 15 second-, third-, and
             upper-level managers and executives, bringing the total number of employees
             reviewed to 252 (202 employees + 35 first-line managers + 15 other managers). We
             selected the sample of second-, third-, and upper-level managers by researching the
             management chain for the selected Section 1204 first-line managers, compiling a list
             of those supervisors, and selecting the sample using a random number generator.
         C. Obtained and reviewed Fiscal Year 2007 performance evaluation documentation
            (including midyear and annual performance reviews and award documentation) for
            each employee selected to determine whether the use of any ROTERs or production
            goals or quotas was documented and whether employees were evaluated
            appropriately on the fair and equitable treatment of taxpayers.
         D. Interviewed a judgmental sample of employees and managers concerning the use of
            ROTERs and their understanding of the retention standard. We selected the
            employees based on who was in the office the day of our visit and who agreed to
            speak with us. Because the IRS had advised us that the number of Section 1204
            employees changes frequently based on the duties performed, we were not able to
            pre-determine the total number of employees per business unit. We selected three
            employees per site.
         E. Reviewed the TIGTA Performance and Results Information System3 for complaints
            regarding the violation of Section 1204.
II.      Determined whether selected first-line managers complied with RRA 98 Section 1204(c)
         by certifying by letter whether ROTERs were used in a manner prohibited by RRA 98
         Section 1204(a).
         A. Obtained Fiscal Year 2007 second and fourth quarter self-certifications for the
            selected first-line managers and reviewed the self-certifications for compliance with
            IRS procedures and the identification of any use of ROTERs or production quotas or
            goals. Due to the timing of our first site visit, the fourth quarter certifications were
            not yet due. Therefore, we obtained the second and third quarter self-certifications
            from managers at this site.




3
  The Performance and Results Information System is the TIGTA management information system that tracks all
leads developed by the TIGTA, all complaints received from external sources, and all investigations initiated as a
result of internal and external allegations.
                                                                                                            Page 10
                    Fiscal Year 2008 Statutory Audit of Compliance With
                   Legal Guidelines Restricting the Use of Records of Tax
                                    Enforcement Results



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Lynn Faulkner, Senior Auditor
Jack Forbus, Senior Auditor
Tracy Harper, Senior Auditor
Jerome Antoine, Auditor
Jean Bell, Auditor
Patricia Jackson, Auditor




                                                                                   Page 11
                     Fiscal Year 2008 Statutory Audit of Compliance With
                    Legal Guidelines Restricting the Use of Records of Tax
                                     Enforcement Results



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
National Taxpayer Advocate TA
Chief Financial Officer OS:CFO
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Large and Mid-Size Business Division SE:LM:CL
   Commissioner, Tax Exempt and Government Entities Division SE:T:CL
   Chief, Appeals AP:TP:SS
   National Taxpayer Advocate TA
   Chief Financial Officer OS:CFO
   Director, Communications, Liaison and Disclosure SE:S:CLD
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 12
                      Fiscal Year 2008 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                      Enforcement Results



                                                                              Appendix IV

                              Prior Audit Reports

The TIGTA has previously performed nine audits in this subject area. The audit reports were:
   Fiscal Year 2007 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2007-40-055, dated
   March 20, 2007).
   Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2006-40-095, dated
   June 2006).
   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2005-40-157, dated
   September 2005).
   Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2004-40-066, dated
   March 2004).
   Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2003-40-090, dated
   March 2003).
   Compliance With Regulations Restricting the Use of Records of Tax Enforcement
   Results Shows Improvement (Reference Number 2002-40-163, dated September 2002).
   Compliance With the Internal Revenue Service Restructuring and Reform Act of 1998
   Section 1204 Has Not Yet Been Achieved (Reference Number 2001-10-178, dated
   September 2001).
   Further Improvements Are Needed in Processes That Control and Report Misuse of
   Enforcement Statistics (Reference Number 2000-10-118, dated September 2000).
   The Internal Revenue Service Should Continue Its Efforts to Achieve Full Compliance with
   Restrictions on the Use of Enforcement Statistics (Reference Number 1999-10-073, dated
   September 1999).




                                                                                       Page 13
       Fiscal Year 2008 Statutory Audit of Compliance With
      Legal Guidelines Restricting the Use of Records of Tax
                       Enforcement Results



                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 14
 Fiscal Year 2008 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax
                 Enforcement Results




                                                     Page 15
 Fiscal Year 2008 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax
                 Enforcement Results




                                                     Page 16
